HHS/OIG, Audit -"2004 Adjusted Community Rate Proposal Modifications Submitted as a Result of the Medicare Prescription Drug, Improvement, and Modernization Act,"(A-04-05-06007)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"2004 Adjusted Community Rate Proposal Modifications
Submitted as a Result of the Medicare Prescription Drug, Improvement, and Modernization Act," (A-04-05-06007)
December 21, 2005
Complete
Text of Report is available in PDF format (453 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review
was to determine whether WellCare of Florida, Inc.s (WellCares) use of its Medicare Prescription
Drug, Improvement, and Modernization Act (MMA) payment increase was adequately supported
and allowable under MMA.  WellCare appropriately used the MMA payment increase to
reduce beneficiary cost sharing for basic radiology services, to enhance over-the-counter
drug benefits, to stabilize beneficiary access to providers through increased provider
payments, and to cover the administrative costs of offering exclusive Medicare discount
drug cards to plan members.  WellCares use of its increased MMA payments was adequately
supported and allowable.  Therefore, we did not make any recommendations.